ia
PETITION APPENDIX TABLE OF CONTENTS
United States Court of Appeals for the
Second Circuit,
Summary Order in 20-460,
Issued January 11, 2021 ..................................1a–10a
United States District Court for the
Southern District of New York,
Opinion and Order in 1:18-cv-09778-KPF,
Issued January 10, 2020 ................................ 11a–48a

1a
20-460
Seidemann v. Professional Staff Congress
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT
HAVE PRECEDENTIAL EFFECT. CITATION
TO A SUMMARY ORDER FILED ON OR AFTER
JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY
ORDER IN A DOCUMENT FILED WITH THIS
COURT, A PARTY MUST CITE EITHER THE
FEDERAL APPENDIX OR AN ELECTRONIC
DATABASE
(WITH
THE
NOTATION
“SUMMARY ORDER”). A PARTY CITING TO A
SUMMARY ORDER MUST SERVE A COPY OF
IT ON ANY PARTY NOT REPRESENTED BY
COUNSEL.
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 11th day of January,
two thousand twenty-one.
Present:

DEBRA ANN LIVINGSTON,
Chief Judge,
MICHAEL h. PARK,
STEVEN j. MENASHI,
Circuit Judges.

___________________________________

2a
DAVID SEIDEMANN, BRUCE MARTIN,
individually and on behalf of all others
similarly situated,
Plaintiffs-Appellants,
v.

No. 20-460

PROFESSIONAL STAFF CONGRESS LOCAL
2334, AMERICAN FEDERATION OF
TEACHERS AFL-CIO, AMERICAN
FEDERATION OF LABOR AND CONGRESS
OF INDUSTRIAL ORGANIZATIONS,
AMERICAN ASSOCIATION OF UNIVERSITY
PROFESSORS COLLECTIVE BARGAINING
CONGRESS, NEW YORK STATE UNITED
TEACHERS, NATIONAL EDUCATION
ASSOCIATION OF THE UNITED STATES,
Defendants-Appellees,
FACULTY ASSOCIATION OF SUFFOLK
COUNTY COMMUNITY COLLEGE,
UNITED UNIVERSITY PROFESSIONS,
FARMINGDALE STATE COLLEGE CHAPTER,
Appellees.
______________________________________
For PlaintiffsAppellants:

Gregory N. Longworth,
Clark Hill PLC, Grand
Rapids, MI; John J.
Bursch,
Bursch
Law
PLLC, Caledonia, MI

3a
For DefendantAppellee Professional
Staff Congress Local
2334:

Michael J. Del Piano,
Edward J. Greene, Jr.,
Andrea A. Wanner for
Robert T. Reilly, General
Counsel, New York State
United Teachers, New
York, NY; Charles G.
Moerdler, Alan M. Klinger,
Dina Kolker, Arthur J.
Herskowitz, Stroock &
Stroock & Lavan LLP, New
York, NY; Hanan B. Kolko,
Cohen, Weiss & Simon
LLP, New York, NY; Peter
Zwiebach, New York, NY

For DefendantsAppellees American
Federation of
Teachers and New
York State United
Teachers:

Michael J. Del Piano,
Edward J. Greene, Jr.,
Andrea A. Wanner for
Robert T. Reilly, General
Counsel, New York State
United Teachers, New
York, NY; Charles G.
Moerdler, Alan M. Klinger,
Dina Kolker, Arthur J.
Herskowitz, Stroock &
Stroock & Lavan LLP, New
York, NY

4a
For DefendantAppellee National
Education
Association of the
United States:

Michael J. Del Piano,
Edward J. Greene, Jr.,
Andrea A. Wanner for
Robert T. Reilly, General
Counsel, New York State
United Teachers, New
York,
NY;
Scott
A.
Kronland,
Altshuler
Berzon
LLP,
San
Francisco, CA

For DefendantAppellee American
Federation of Labor
and Congress of
Industrial
Organizations:

Kent
Y.
Gladstein,
Meginniss,
York, NY

For DefendantAppellee American
Association of
University Professors
Collective Bargaining
Congress:

David M. Slutsky, Levy
Ratner, P.C., New York,
NY

For Appellees:

Michael J. Del Piano,
Edward J. Greene, Jr.,
Andrea A. Wanner for
Robert T. Reilly, General
Counsel, New York State
United Teachers, New
York, NY

Hirozawa,
Reif
&
LLP,
New

5a
Appeal from a judgment of the United States
District Court for the Southern District of New York
(Failla, J.).
UPON DUE CONSIDERATION, IT IS
HEREBY
ORDERED,
ADJUDGED,
AND
DECREED that the judgment of the district court is
AFFIRMED.
Plaintiffs David Seidemann and Bruce Martin
(together, “Plaintiffs”), on behalf of themselves and all
others similarly situated, appeal from a judgment of
the United States District Court for the Southern
District of New York (Failla, J.), entered on January
10, 2020, dismissing all of their claims against the
defendant unions (together, “Defendants”). Plaintiffs
were both public employees who chose not to join the
unions representing their fellow employees. New York
law, however, still required both to pay agency shop
fees to those unions. In Janus v. AFSCME, Council
31, 138 S. Ct. 2448 (2018), the Supreme Court overruled its earlier decision in Abood v. Detroit Board of
Education, 431 U.S. 209 (1977), and held that such
laws violate the First Amendment. Plaintiffs brought
suit requesting both prospective relief (declaring New
York’s law unconstitutional and enjoining Defendants
from collecting agency shop fees) as well as a refund
of the fees they and the other class members were
unconstitutionally required to pay. The district court
dismissed their request for prospective relief for lack
of subject-matter jurisdiction and their federal and
state law claims for a refund of their agency shop fees
for failure to state a claim. We assume the parties’
familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.
*

*

*

6a
We first address the district court’s dismissal of
Plaintiffs’ claims for prospective relief under Rule
12(b)(1). The district judge concluded that Plaintiffs
lack Article III standing on the face of their complaint.
In such cases, review by this Court is de novo, accepting as true all material allegations in the complaint
and drawing all reasonable inferences in favor of the
plaintiff. Carter v. HealthPort Tech., LLC, 822 F.3d
47, 57 (2d Cir. 2016); see Already, LLC v. Nike, Inc.,
568 U.S. 85, 90 (2013) (“[Article III] requires those
who invoke the power of a federal court to demonstrate standing . . . .”). After reviewing Plaintiffs’ complaint, we agree that they have failed to demonstrate
standing to request prospective relief.
At the start, we acknowledge that, as a theoretical
matter, the Supreme Court’s decision in Janus may
not be the end of the standing inquiry in a case such
as this one. Cf. Pool v. City of Houston, 978 F.3d 307
(5th Cir. 2020) (holding plaintiffs had standing to
challenge a law the city admitted was unconstitutional under Supreme Court precedent). But standing
requires more than a mere allegation that an
unlawful state of affairs exists. To have standing, a
plaintiff must show that he or she has suffered an
injury in fact. Liberian Cmty. Ass’n of Conn. v.
Lamont, 970 F.3d 174, 184 (2d Cir. 2020). This, in
turn, requires that the injury must be “‘concrete and
particularized’ as well as ‘actual or imminent, not
conjectural or hypothetical.’” Id. (quoting Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560 (1992)). In
particular, allegations of possible future injury are not
sufficient unless “the threatened injury is ‘certainly
impending,’ or there is a ‘substantial risk that the
harm will occur.’” Susan B. Anthony List v. Driehaus,
573 U.S. 149, 158 (2014) (quoting Clapper v. Amnesty
Int’l, 568 U.S. 398, 414 & n.5 (2013)).

7a
Plaintiffs’ complaint does not meet this bar. It
contains no allegations of future harm or any factual
matter that could lead us to conclude that there is any
risk (much less a substantial one) that Defendants
will attempt to collect agency shop fees in the future.
See Nicosia v. Amazon.com, Inc., 834 F.3d 220, 239 (2d
Cir. 2016) (“Plaintiffs lack standing to pursue injunctive relief where they are unable to establish a ‘real or
immediate threat’ of injury.” (quoting City of Los
Angeles v. Lyons, 461 U.S. 95, 111 (1983))); see also
Pool, 978 F.3d at 312 (“Without any indication that
the government is planning to enforce a law after a
similar one has been held unconstitutional in a
binding decision, there would be no objective fear of
continued enforcement.”). Moreover, Plaintiffs admit
that the Defendants have provided assurances that
they will not deduct the unconstitutional agency shop
fees from Plaintiffs’ paychecks. Plaintiffs have
therefore failed to allege facts that would establish
standing to request prospective relief. Accordingly,
their claims were properly dismissed for lack of
subject-matter jurisdiction.
We turn next to Plaintiffs’ claim under 42 U.S.C.
§ 1983 that they are entitled to a refund of the agency
shop fees they paid to Defendants. Judge Failla’s wellreasoned opinion concluded that Defendants had a
good-faith defense against claims under § 1983 and
that Defendants had established an entitlement to
this defense as a matter of law. Since the district
court’s order, we have reached the same conclusion
about § 1983. Specifically, in Wholean v. CSEA SEIU
Local 2001, this Court held “that a party who
complied with directly controlling Supreme Court
precedent in collecting fair-share fees cannot be held
liable for monetary damages under § 1983.” 955 F.3d
332, 334 (2d Cir. 2020). Though Plaintiffs’ brief was

8a
filed after Wholean, it provides essentially no
explanation why Wholean’s holding does not control
the outcome here, choosing instead to explain why, in
their view, the case was wrongly decided. But absent
such a distinction, Wholean controls.1
Finally, Plaintiffs argue they are entitled to a
refund of the agency shop fees under a state-law
theory of conversion or, in the alternative, unjust
enrichment. Standing in their way is N.Y. CIV. SERV.
LAW § 215 which provides:
Notwithstanding any other law to the
contrary, any public employer, any employee
organization, the comptroller and the board,
or any of their employees or agents, shall not
be liable for, and shall have a complete
defense to, any claims or actions under the
laws of this state for requiring, deducting,
receiving, or retaining dues or agency shop fee
deductions from public employees, and current or former public employees shall not have
standing to pursue these claims or actions, if
the dues or fees were permitted or mandated
at the time under the laws of this state then
in force and paid, through payroll deduction or
otherwise, prior to June [27, 2018].
Plaintiffs raise a number of unavailing arguments
against the application of this provision to their
1 Plaintiffs argue in addition that Defendants did not act in good
faith. The district court correctly observed, however, that the
complaint is devoid of allegations to this effect, nor can such allegations be found anywhere in the “narrow universe of materials”
outside the complaint that a court may consider when ruling on
a Rule 12(b)(6) motion. Goel v. Bunge, Ltd., 820 F.3d 554, 559 (2d
Cir. 2016). As a result, we agree that Plaintiffs’ federal claims
were properly dismissed.

9a
claims, the strongest of which is based on the New
York Constitution.2 The New York Constitution
provides, in pertinent part, that “[n]o provision shall
be embraced in any appropriation bill submitted by
the governor or in such supplemental appropriation
bill unless it relates specifically to some particular
appropriation in the bill, and any such provision shall
be limited in its operation to such appropriation.” N.Y.
CONST. art. VII, § 6. Plaintiffs claim that § 215 violates
this provision. We agree with the district court, however, that the relevant New York cases interpreting
this provision impose a relatively low bar for what
“relates specifically to some particular appropriation.”
See Ctr. for Judicial Accountability, Inc. v. Cuomo,
167 A.D.3d 1406, 1411–12 (3d Dep’t 2018) (concluding
that creation of a commission to review judicial
compensation was related to items in the budget); see
also Schuyler v. S. Mall Constructors, 32 A.D.2d 454,
456 (3d Dep’t 1969) (concluding that the challenged
provision “relate[d] specifically to some particular
appropriation in the bill, even though the ‘particular
appropriation’ to which it relates [was] not precisely
itemized in the general appropriation bill”). We
further agree that because the relevant budget here
appropriated funds for the compensation of public
employees, a provision impacting the liability of the
individuals and entities that manage employees’
paychecks satisfies the standard articulated by New
York courts interpreting this constitutional
requirement.
*

*

*

2 We conclude that Plaintiffs’ other objections are meritless for
the reasons explained by the district court.

10a
We have considered Plaintiffs’ remaining arguments and find them to be without merit. Accordingly,
we AFFIRM the judgment of the district court.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

11a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
DAVID SEIDEMANN and
BRUCE MARTIN, individually
and on behalf of all others
similarly situated,
Plaintiffs,

18 Civ. 9778 (KPF)
OPINION AND
ORDER

-v.PROFESSIONAL STAFF
CONGRESS LOCAL 2334;
FACULTY ASSOCIATION OF
SUFFOLK COUNTY
COMMUNITY COLLEGE;
UNITED UNIVERSITY
PROFESSIONS,
FARMINGDALE STATE
COLLEGE CHAPTER;
NATIONAL EDUCATION
ASSOCIATION OF THE
UNITED STATES; AMERICAN
FEDERATION OF TEACHERS;
AMERICAN FEDERATION OF
LABOR AND CONGRESS OF
INDUSTRIAL
ORGANIZATIONS; AMERICAN
ASSOCIATION OF
UNIVERSITY PROFESSORS
COLLECTIVE BARGAINING
CONGRESS; and NEW YORK
STATE UNITED TEACHERS,
Defendants.

KATHERINE POLK FAILLA, District Judge:

12a
Plaintiffs David Seidemann and Bruce Martin
bring this putative class action against Defendants
Professional Staff Congress Local 2334 (“PSC”),
American Federation of Teachers (“AFT”), American
Federation of Labor and Congress of Industrial
Organizations (“AFL-CIO”), American Association of
University Professors Collective Bargaining Congress
(“AAUPCBC”), New York State United Teachers
(“NYSUT”), National Education Association of the
United States (“NEA”), Faculty Association of Suffolk
County Community College (“FASCCC”), and United
University Professions, Farmingdale State College
Chapter (“UUP”). Prior to the Supreme Court’s decision in Janus v. American Federation of State, County,
and Municipal Employees, Council 31, 138 S. Ct. 2448
(2018), Plaintiffs were required to pay agency shop
fees to the unions that represented their respective
places of employment, in compliance with New York
Civil Service Law § 208 and as authorized by Abood v.
Detroit Board of Education, 431 U.S. 209 (1977).
Plaintiffs now allege that they are entitled to the
return of all agency shop fees previously paid, raising
constitutional claims under 42 U.S.C. § 1983 and
common-law claims for conversion and unjust enrichment. Additionally, Plaintiffs seek a declaratory
judgment stating that both compulsory agency shop
fees and New York State laws that authorize them are
unconstitutional, as well as an injunction against the
collection of those fees. Defendants move to dismiss
Plaintiffs’ suit in its entirety under Federal Rules of
Civil Procedure 12(b)(1) and 12(b)(6). For the reasons
set forth in the remainder of this Opinion, Defendants’
motion to dismiss is granted.

13a
BACKGROUND1
A. Legal Background
Before stating the facts of this case, it is necessary
to understand the legal backdrop to Plaintiffs’ claims.
1 The facts contained in this Opinion are drawn primarily from
Plaintiffs’ Amended Complaint, which is the operative pleading
in this case and is referred to in this Opinion as the “Amended
Complaint” or “Am. Compl.” (Am. Compl. (Dkt. #65)). The Court
has not considered the declaration submitted by Plaintiff
Seidemann as part of his submission in opposition to Defendants’
motion to dismiss (Dkt. #93), as Seidemann has offered no legal
basis for the Court to do so. See Marolla v. Devlyn Optical LLC,
No. 18 Civ. 7395 (VSB), 2019 WL 4194330, at *4 n.5 (S.D.N.Y.
Sept. 3, 2019) (citing Goodman v. Port Auth. of N.Y. & N.J., 850
F. Supp. 2d 363, 381 (S.D.N.Y. 2012) (“Plaintiff’s additional
factual assertions, provided in his opposition papers and affidavit, are inadmissible.”); Wachtel v. Nat’l R.R. Passenger Corp.,
No. 11 Civ. 613 (PAC), 2012 WL 292352, at *2 (S.D.N.Y. Jan. 30,
2012) (“While Plaintiff attached an affidavit to his opposition
brief in an attempt to support his argument, the Court cannot
consider affidavits in ruling on a motion to dismiss.”)); see also
Troy v. City of New York, No. 13 Civ. 5082 (AJN), 2014 WL
4804479, at *1 (S.D.N.Y. Sept. 25, 2014) (“[T]he Court does not
rely on factual assertions made for the first time in Plaintiff’s
opposition brief … as it is axiomatic that the Complaint cannot
be amended by briefs in opposition to a motion to dismiss.”
(internal citations and quotation marks omitted)), aff’d, 614 F.
App’x 32 (2d Cir. 2015) (summary order).
The Court also draws jurisdictional facts from the exhibits
attached to the Declaration of Deborah E. Bell in Support of
Defendants’ Motion to Dismiss the Amended Complaint, referred
to as the “Bell Decl.” (Dkt. #89); the Declaration of Tina M.
George in Support of Defendants’ Motion to Dismiss the
Amended Complaint, referred to as the “George Decl.” (Dkt. #90);
and the Declaration of Peter N. DiGregorio in Support of Defendants’ Motion to Dismiss the Amended Complaint, referred to as
the “DiGregorio Decl.” (Dkt. #91). Defendants are permitted to
[Footnote continued on next page]

14a
In 1977, the Supreme Court addressed whether
unions could compel non-members that they nevertheless represented to pay service fees pursuant to an
“agency shop” clause; such fees are known colloquially
as agency shop fees. See Abood v. Detroit Bd. of Ed.,
431 U.S. 209, 212 (1977). In a unanimous opinion, the
Supreme Court held that such fees were constitutional insofar as they were spent in advancement of
the union’s duties as collective-bargaining representative, but that they could not be spent on political or
ideological causes over the objection of the represented employee. See id. at 235-36. This remained the
law of the land for decades, albeit with sporadic
warnings in dicta about its potential infirmity, see,
e.g., Harris v. Quinn, 573 U.S. 616, 635-38 (2014), and
states such as New York enacted statutes in reliance
on Abood’s holding, see N.Y. Civ. Serv. L. § 208(3)
(McKinney 2019). In June 27, 2018, however, the
Court expressly overruled Abood and declared all
agency shop fees in the public employment setting to
be violative of the First Amendment. See Janus v. Am.
Fed’n of State, Cty., & Mun. Emps., Council 31, 138 S.
Ct. 2448, 2459-60 (2018).
B. Factual Background
At all relevant times, Plaintiffs were college professors at public educational institutions in New York.
present extrinsic evidence showing lack of subject matter jurisdiction on a motion brought under Federal Rule of Civil
Procedure 12(b)(1). See Carter v. HealthPort Technologies, LLC,
822 F.3d 47, 57 (2d Cir. 2016).
For ease of reference, the Court refers to the parties’ briefing as
follows: Defendants’ opening brief as “Def. Br.” (Dkt. #83);
Plaintiffs’ opposition brief as “Pl. Opp.” (Dkt. #92); and
Defendants’ reply brief as “Def. Reply” (Dkt. #94).

15a
(Am. Compl. ¶¶ 1-2). David Seidemann was a professor at the City University of New York (“CUNY”)
(id. at ¶ 1), while Bruce Martin was a professor at both
Suffolk County Community College (“SCCC”) and
Farmingdale State College (“FSC”) (id. at ¶ 2). Both
plaintiffs thus qualified as “public employees” for
purposes of N.Y. Civ. Serv. Law § 208. As a faculty
member at CUNY, Seidemann was represented by
Defendant PSC and thus was required to pay agency
shop fees to PSC, portions of which were then
forwarded to Defendants AFT, AFL-CIO, AAUPCBC,
and NYSUT. (Id. at ¶¶ 1, 3). Of note, however,
Seidemann was never a member of PSC and never
affirmatively consented to pay agency shop fees. (Id.
at ¶ 1).
Martin, for his part, was represented by Defendant FASCCC in his capacity as a professor at SCCC
and by Defendant UUP in his capacity as a professor
at FSC, and thus was required to pay agency shop fees
to both organizations. (Am. Compl. ¶¶ 2, 4-5). Portions
of these agency shop fees were then forwarded to
Defendants AFT, AFL-CIO, NEA, and NYSUT. (Id. at
¶¶ 4-5). Like Seidemann, Martin was never a member
of either FASCCC or UPP, and never affirmatively
consented to pay agency shop fees. (Id. at ¶ 2). All
agency shop fees were paid via a direct deduction from
Plaintiffs’ paychecks, as authorized by N.Y. Civ. Serv.
Law § 208(3). (Id. at ¶ 13). Neither Seidemann nor
Martin alleges that he has been required to pay
agency shop fees since the Supreme Court’s decision
in Janus.
C. Procedural Background
Seidemann filed his initial complaint in this
action on October 24, 2018, several months after
Janus was issued; initially, he named AAUPCBC,

16a
AFL-CIO, AFT, NYSUT, and PSC as Defendants.
(Dkt. #1). On January 11, 2019, Defendants asked the
Court for leave to file a motion to dismiss (Dkt. #46),
to which Seidemann responded on January 16, 2019
(Dkt. #47). The parties appeared before the Court for
a pre-motion conference on January 31, 2019, during
which time the Court set a briefing schedule for the
proposed motion to dismiss. (Minute Entry of January
31, 2019). The Court then adjourned that schedule
after granting Seidemann’s request of March 20,
2019, to file an amended class action complaint. (Dkt.
#60, 62).
Seidemann filed an Amended Complaint, joined
by Martin, on April 12, 2019, in which the pair added
FASCCC, NEA, and UUP as Defendants. (Dkt. #65).
Defendants filed their motion to dismiss, along with
an accompanying memorandum and numerous
declarations, on May 24, 2019. (Dkt. #82). Plaintiffs
filed a brief in opposition, along with a declaration, on
June 21, 2019. (Dkt. #93). Defendants filed their reply
brief on July 12, 2019. (Dkt. #94).
DISCUSSION2
A. Applicable Law
1. Motions to Dismiss Under Fed. R. Civ. P.
12(b)(1)
Defendants challenge Plaintiffs’ request for an
injunction and a declaratory judgment as non2 The Court notes that while it is, to its knowledge, the first court
in this District to hear claims regarding whether non-unionmember public employees are entitled to the refund of their
agency shop fees, substantially identical claims have been
brought, and disposed of, across the country. See, e.g., Ogle v.
Ohio Civ. Serv. Emps. Ass’n, AFSCME, Local 11, 397 F. Supp. 3d
[Footnote continued on next page]

17a
justiciable for reasons of mootness. (See Def. Br. 1).
The Court analyzes these claims for equitable relief
under the rubric of Rule 12(b)(1). See PlatinumMontaur
Life
Scis.
LLC
v.
Navidea
Biopharmaceuticals, Inc., No. 17 Civ. 9591 (VEC),
2018 WL 5650006, at *2 (S.D.N.Y. Oct. 31, 2018)
(citing All. For Envtl. Renewal, Inc. v. Pyramid
Crossgates Co., 436 F.3d 82, 89 n.6 (2d Cir. 2006)) (“As
the Second Circuit has explained … standing challenges are jurisdictional questions that are properly
resolved under Rule 12(b)(1).”), vacated and remanded on other grounds, 943 F.3d 613 (2d Cir. 2019).

1076 (S.D. Ohio 2019); Babb v. Cal. Teachers Ass’n, 378 F. Supp.
3d 857 (C.D. Cal. 2019); Wholean v. CSEA SEIU Local 2001, No.
18 Civ. 1008 (WWE), 2019 WL 1873021 (D. Conn. Apr. 26, 2019);
Akers v. Md. State Educators Ass’n, 376 F. Supp. 3d 563 (D. Md.
2019); Bermudez v. Serv. Emps. Int’l Union, Local 521, No. 18
Civ. 4312 (VC), 2019 WL 1615414 (N.D. Cal. Apr. 16, 2019);
Mooney v. Ill. Educ. Ass’n, 372 F. Supp. 3d 690 (C.D. Ill. 2019),
aff’d, 942 F.3d 368 (7th Cir. 2019); Lee v. Ohio Educ. Ass’n, 366
F. Supp. 3d 980 (N.D. Ohio 2019); Hough v. SEIU Local 521, No.
18 Civ. 4902 (VC), 2019 WL 1785414 (N.D. Cal. Apr. 16, 2019);
Janus v. Am. Fed’n of State, Cty., & Mun. Emps., Council 31,
AFL-CIO, No. 15 Civ. 1235 (RWG), 2019 WL 1239780 (N.D. Ill.
Mar. 18, 2019); Carey v. Inslee, 364 F. Supp. 3d 1220 (W.D. Wash.
2019); Crockett v. NEA-Alaska, 367 F. Supp. 3d 996 (D. Alaska
2019); Cook v. Brown, 364 F. Supp. 3d 1184 (D. Or. 2019);
Danielson v. Am. Fed’n of State, Cty., & Mun. Emps., Council 28,
AFL-CIO, 340 F. Supp. 3d 1083 (W.D. Wash. 2018). Although
there are slight variations between and among the above cases,
their underlying facts and legal arguments largely mirror the
ones before this Court, and the respective district courts have
offered thoughtful and comprehensive analyses of these
arguments. Although the Court is not bound by any of the other
district court opinions and has conducted its own independent
analysis, that analysis is shaped by the persuasive reasoning of
these other courts.

18a
Rule 12(b)(1) permits a party to move to dismiss a
complaint for “lack of subject-matter jurisdiction.”
Fed. R. Civ. P. 12(b)(1). “A case is properly dismissed
for lack of subject matter jurisdiction under Rule
12(b)(1) when the district court lacks the statutory or
constitutional power to adjudicate it.” Lyons v. Litton
Loan Servicing LP, 158 F. Supp. 3d 211, 218 (S.D.N.Y.
2016) (quoting Makarova v. United States, 201 F.3d
110, 113 (2d Cir. 2000)).
The Second Circuit has drawn a distinction
between two types of Rule 12(b)(1) motions: (i) facial
motions and (ii) fact-based motions. See Carter v.
HealthPort Technologies, LLC, 822 F.3d 47, 56-57 (2d
Cir. 2016); see also Katz v. Donna Karan Co., L.L.C.,
872 F.3d 114, 119 (2d Cir. 2017). A facial Rule 12(b)(1)
motion is one “based solely on the allegations of the
complaint or the complaint and exhibits attached to
it.” Carter, 822 F.3d at 56. A plaintiff opposing such a
motion bears “no evidentiary burden.” Id. Instead, to
resolve a facial Rule 12(b)(1) motion, a district court
must “determine whether [the complaint and its
exhibits] allege[ ] facts that” establish subject matter
jurisdiction. Id. (quoting Amidax Trading Grp. v.
S.W.I.F.T. SCRL, 671 F.3d 140, 145 (2d Cir. 2011) (per
curiam)). And to make that determination, a court
must accept the complaint’s allegations as true “and
draw[ ] all reasonable inferences in favor of the
plaintiff.” Id. at 57 (internal quotation marks and
citation omitted).
“Alternatively, a defendant is permitted to make
a fact-based Rule 12(b)(1) motion, proffering evidence
beyond the complaint and its exhibits.” Carter, 822
F.3d at 57. “In opposition to such a motion, [plaintiffs]
must come forward with evidence of their own to
controvert that presented by the defendant, or may

19a
instead rely on the allegations in the[ir p]leading if
the evidence proffered by the defendant is immaterial
because it does not contradict plausible allegations
that are themselves sufficient to show standing.”
Katz, 872 F.3d at 119 (internal citations and
quotations omitted). If a defendant supports his factbased Rule 12(b)(1) motion with “material and
controverted” “extrinsic evidence,” a “district court
will need to make findings of fact in aid of its decision
as to subject matter jurisdiction.” Carter, 822 F.3d at
57.
2. Motions to Dismiss Under Fed. R. Civ. P.
12(b)(6)
Defendants seek to dismiss the remainder of the
Amended Complaint pursuant to Rule 12(b)(6). When
considering a motion to dismiss under Federal Rule of
Civil Procedure 12(b)(6), a court must “draw all reasonable inferences in Plaintiff’s favor, assume all wellpleaded factual allegations to be true, and determine
whether they plausibly give rise to an entitlement to
relief.” Faber v. Metro. Life Ins. Co., 648 F.3d 98, 104
(2d Cir. 2011) (internal quotation marks omitted); see
also Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). A
plaintiff is entitled to relief if he alleges “enough facts
to state a claim to relief that is plausible on its face.”
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007);
see also In re Elevator Antitrust Litig., 502 F.3d 47, 50
(2d Cir. 2007) (“While Twombly does not require
heightened fact pleading of specifics, it does require
enough facts to nudge plaintiff’s claims across the line
from conceivable to plausible.” (internal quotation
marks omitted) (citing Twombly, 550 U.S. at 570)).
“Where a complaint pleads facts that are ‘merely
consistent with’ a defendant’s liability, it ‘stops short
of the line between possibility and plausibility of

20a
entitlement to relief.’” Iqbal, 556 U.S. at 678 (quoting
Twombly, 550 U.S. at 557). Moreover, “the tenet that
a court must accept as true all of the allegations
contained in a complaint is inapplicable to legal
conclusions. Threadbare recitals of the elements of a
cause of action, supported by mere conclusory statements, do not suffice.” Id.
B. Analysis
Defendants advance three principal arguments
for dismissal: (i) Plaintiffs’ claims for prospective
relief are moot due to Defendants’ undisputed compliance with Janus since June 27, 2018; (ii) Plaintiffs’
claims for a refund under 42 U.S.C. § 1983 fail as a
matter of law because Defendants can rely on the
good-faith defense; and (iii) Plaintiffs’ common-law
claims also fail as a matter of law on various grounds.
(See Def. Br. 1-3). The Court will address each
argument in turn.
1. The Court Lacks Subject Matter
Jurisdiction over Plaintiffs’ Claims for a
Declaratory Judgment and Injunctive
Relief3
Federal courts are courts of limited jurisdiction,
“and lack the power to disregard such limits as have
3 At the outset, the Court points out that it is of no moment that
Plaintiffs have styled their claim as a putative class action if they
themselves cannot demonstrate that they have standing to bring
this case. “[N]amed class plaintiffs must allege and show that
they personally have been injured, not that the injury has been
suffered by other, unidentified members of the class to which
they belong and which they purport to represent.” Hidalgo v.
Johnson & Johnson Consumer Cos., Inc., 148 F. Supp. 3d 285,
292 (S.D.N.Y. 2015) (citing Central States SE & SW Areas Health
& Welfare Fund v. Merck-Medco Managed Care, LLC, 443 F.3d
181, 199 (2d Cir. 2005)).

21a
been imposed by the Constitution or Congress.”
Platinum-Montaur Life Scis., LLC v. Navidea
Biopharmaceuticals, Inc., 943 F.3d 613, 616 (2d Cir.
2019). Article III of the Constitution “limits the jurisdiction of federal courts to ‘Cases’ and ‘Controversies,’” thereby “restrict[ing] the authority of federal
courts to resolving ‘the legal rights of litigants in
actual controversies.’” Genesis Healthcare Corp. v.
Symczyk, 569 U.S. 66, 71 (2013) (internal quotation
marks omitted) (quoting Valley Forge Christian
College v. Americans for Separation of Church and
State, Inc., 454 U.S. 471 (1982)). The “Case” and
“Controversy” requirement places the burden on
“those who invoke the power of a federal court to demonstrate standing — a ‘personal injury fairly traceable
to the defendant’s allegedly unlawful conduct and
likely to be redressed by the requested relief.’”
Already, LLC v. Nike, Inc., 568 U.S. 85, 90 (2013). A
case ceases being a “Case” or “Controversy” — or, in
other words, becomes moot — “when the issues
presented are no longer ‘live’ or the parties lack a
legally cognizable interest in the outcome.” Id. at 91.
This is the case “[n]o matter how vehemently the
parties continue to dispute the lawfulness of the
conduct that precipitated the lawsuit.” Id.
Starting with Plaintiffs’ pleadings, the Court
observes that at no point do Plaintiffs allege that
Defendants have failed to comply with the Supreme
Court’s decision in Janus or that Plaintiffs have paid
agency shop fees following that decision. (See Am.
Compl. ¶¶ 1-2 (stating only that Plaintiffs were
required to pay agency shop fees “prior to Janus”)).
Indeed, the only allegation of continuing harm is a
conclusory claim that Defendants “continue to violate
Plaintiffs’ First Amendment rights to free speech and
association.” (Id. at ¶ 33). Thus, given the absence of

22a
any plausible allegation of present or future harm,
Plaintiffs lack standing on the face of the Amended
Complaint alone. See O’Neill v. Standard
Homeopathic Co., 346 F. Supp. 3d 511, 526 (S.D.N.Y.
2018) (noting that “Plaintiffs lack standing to pursue
injunctive relief where they are unable to establish a
‘real or immediate threat’ of injury” (quoting Nicosia
v. Amazon.com, Inc., 834 F.3d 220, 239 (2d Cir.
2016))).
This finding is only buttressed by Defendants’
additional evidence — which, as noted, the Court may
properly consider on a Rule 12(b)(1) motion. See
Carter, 822 F.3d at 57. Specifically, Defendants have
presented uncontroverted evidence that all relevant
entities — the Defendant Unions, the Plaintiffs’
employers, and the New York State Comptroller’s
Office — immediately complied with Janus by ceasing
the deduction of agency shop fees from Plaintiffs’
paychecks and reimbursing to Plaintiffs any fees that
might have been deducted after June 27, 2018. (See
Bell Decl. ¶¶ 13-14, 16-17, 20-21, 24; George Decl. ¶¶
15-16, 18-19, 22; DiGregorio Decl. ¶¶ 18-21, 24-25).
Moreover, Defendants PSC, FASCCC, and UUP have
affirmed their conviction that compelled agency shop
fees in the public sector are no longer constitutional in
the wake of Janus (see Bell Decl. ¶ 27; George Decl. ¶
27; DiGregorio Decl. ¶ 22), and that they have no
intention of, and in most cases are incapable of,
resuming the deduction of agency shop fees from
Plaintiffs’ paychecks (see Bell Decl. ¶¶ 30-31; George
Decl. ¶¶ 22, 29; DiGregorio Decl. ¶ 23; see also Bell
Decl., Ex. 3 (providing Payroll Bulletin No. 1660 from
the New York State Comptroller’s Office, which
notifies of the cessation of all compelled agency shop
fees in light of Janus)). On this record, the Court
cannot discern a basis for Plaintiffs to assert Article

23a
III injury at the time they filed this suit, or, in the
alternative, why their claims for prospective relief are
not now moot.4 See Berman v. N.Y. State Pub. Emp.
Fed’n, No. 16 Civ. 204 (DLI) (RLM), 2019 WL
1472582, at *3 (E.D.N.Y. Mar. 31, 2019) (finding that
claims based on pre-Janus conduct were moot given
Payroll Bulletin No. 1660 and defendants’ acknowledgement of the illegality of compelled agency shop
fees); Lamberty v. Conn. State Police Union, No. 15
Civ. 378 (VAB), 2018 WL 5115559, at *9 (D. Conn.
Oct. 19, 2018) (finding that claims based on pre-Janus
conduct were moot where “none of the Defendants in
this case are disputing that the law of the land has
changed, or are trying to collect agency fees”).
Plaintiffs raise three counter-arguments, all of
which are easily rebutted. First, Plaintiffs claim that
the “voluntary cessation” exception to the mootness
doctrine should apply here. (See Pl. Opp. 2-3 n.6). The
Court does not believe that mootness is the correct
analytical framework for this situation, given that
Plaintiffs have failed to plead facts or to present
evidence demonstrating that a controversy existed
when they brought suit. See Ogle v. Ohio Civ. Serv.
Emps. Ass’n, AFSCME, Local 11, 397 F. Supp. 3d
4 The Court briefly acknowledges that, insofar as the Court
dismisses Plaintiffs’ claims for prospective relief based on a lack
of standing as opposed to mootness, its reasoning differs slightly
from the other district courts that have heard substantially
similar claims. See supra at 6 n.2. The Court believes that the
other courts’ focus on mootness is in part due to the timing of
their respective actions — some were filed prior to Janus — and
in part due to the parties’ briefing focusing on mootness. Indeed,
Defendants here primarily argue for dismissal based on
mootness. (See Def. Br. 9). However, despite the slightly different
analytical path, the Court nonetheless finds the prior district
court opinions helpful and cites to them where appropriate.

24a
1076, 1085 (S.D. Ohio 2019) (explaining that mootness
applies when an actual controversy existed at the
outset of the suit but later ceased to exist, while
standing applies when no controversy exists at the
outset). Although mootness and standing are linked,
see Friends of the Earth, Inc. v. Laidlaw
Environmental Services (TOC), Inc., 528 U.S. 167, 170
(2000) (discussing the Supreme Court’s “repeated
description of mootness as ‘the doctrine of standing set
in a time frame’”), they differ significantly in that they
entail different burdens, see Mhany Management, Inc.
v. County of Nassau, 819 F.3d 581, 603 (2d Cir. 2016).
“The burden of establishing standing falls on the
plaintiff,” but “the burden of showing mootness …
falls on a defendant.” Mhany Mgmt., 819 F.3d at 603.
Plaintiffs here bear the burden of proving that
they had standing to request prospective relief at the
outset, but the only facts they allege are that they
were subjected to unlawful conduct prior to Janus.
(See Am. Compl. ¶¶ 1-2). And as noted, Plaintiffs
cannot rely on that prior unlawful conduct to establish
standing for prospective relief. See Shain v. Ellison,
356 F.3d 211, 215 (2d Cir. 2004) (explaining that
plaintiff “cannot rely on past injury to satisfy the
injury[-in-fact] requirement [of standing] but must
show a likelihood that he will be injured in the future”
(internal ellipsis removed) (quoting Deshawn E. by
Charlotte E. v. Safir, 156 F.3d 340, 344 (2d Cir.
1998))). Thus, Plaintiffs have failed to establish that
they have standing to pursue prospective relief,
whether it be injunctive or declaratory in nature. The
Court need not discuss the “voluntary cessation” doctrine, as mootness is not at issue here. Even if it were,
Plaintiffs’ claims would be unequivocally moot. See
Wholean v. CSEA SEIU Local 2001, No. 18 Civ. 1008
(WWE), 2019 WL 1873021, at *3 (D. Conn. Apr. 26,

25a
2019) (finding plaintiffs’ claims moot on substantially
identical facts because “[i] the Supreme Court has
already determined the issue, and [ii] defendants
have demonstrated that collection of such fees has
ceased and is unlikely to recur”).
Second, Plaintiffs argue that because Janus did
not directly address the constitutionality of N.Y. Civ.
Serv. Law § 208, the Court is still obligated to declare
that statute unconstitutional. (See Pl. Opp. 3 n.7).
Plaintiffs specifically analogize to Jernigan v. Crane
(see id.), in which the Eighth Circuit held that the
Supreme Court’s decision in Obergefell v. Hodges, 135
S. Ct. 2584 (2015), did not moot a suit challenging
Arkansas’s laws barring same-sex marriage. See 796
F.3d 976, 979-80 (8th Cir. 2015). Again, this is an
argument sounding on mootness, and the Court has
already determined that mootness is not at play here
because of Plaintiffs’ antecedent failure to establish
standing. Regardless, Jernigan is inapposite because
the Eighth Circuit there noted that Obergefell
specifically invalidated only the state laws challenged
by the petitioners. See Jernigan, 796 F.3d at 979
(quoting Obergefell, 135 S. Ct. at 2591). Janus, by
contrast, had a much broader holding: “States and
public-sector unions may no longer extract agency fees
from nonconsenting employees.” Janus, 138 S. Ct. at
2486. This broad holding covers all state laws authorizing the extraction of agency fees from nonconsenting employees, including New York’s statute. See
Diamond v. Penn. State Educ. Ass’n, 399 F. Supp. 3d
361, 388 (W.D. Pa. 2019) (explaining that Obergefell
was written narrowly to hold invalid particular states’
laws, while “Janus broadly overruled Abood,”
“moot[ing] controversies in ways Obergefell’s narrow
holding did not”).

26a
Third, Plaintiffs cite United States Department of
Treasury, Bureau of Alcohol, Tobacco and Firearms v.
Galioto, 477 U.S. 556 (1986), for the proposition that
the New York legislature’s failure to repeal N.Y. Civ.
Serv. Law § 208 provides Plaintiffs with standing to
obtain injunctive relief. (See Pl. Opp. 3 n.9). Plaintiffs,
however, have flipped the earlier case on its head. The
Galioto court held that the plaintiff’s case had become
moot because Congress had amended the problematic
statute. See Galioto, 477 U.S. at 560-61. It did not hold
the inverse — that a case remains live so long as the
legislature retains a problematic statute on the books.
As has already been noted above and by numerous
other district courts, Janus fundamentally changed
the law of the land, see, e.g., Diamond, 399 F. Supp.
3d at 386-87; Lamberty, 2018 WL 5115559, at *9, and
by virtue of the Supremacy Clause, Janus’s broad
holding preempts any state law to the contrary, see
U.S. Const. art. VI; Cooper v. Aaron, 358 U.S. 1, 18
(1958). Neither Defendants nor any agent of New
York State has argued to the contrary. Thus, in lieu of
an actual dispute, the Court is back where it started:
Plaintiffs lack standing. See Symczyk, 569 U.S. at 71.
2. Plaintiffs Fail to State a Claim Under
§ 1983
Plaintiffs seek retrospective, and not merely prospective, relief. In this regard, they bring claims under
42 U.S.C. § 1983, alleging that Defendants violated
their First Amendment rights to free speech and
association, and demanding a refund “of all agency
shop fees unlawfully withheld or collected from
Plaintiffs.” (Am. Compl. ¶¶ 33 & Ex. E). Defendants
argue (see Def. Br. 13), and Plaintiff disputes (see Pl.
Opp. 8-9), that the good-faith defense applies in this
case and bars Plaintiffs’ claims under § 1983.

27a
Section 1983 “provides a cause of action against
persons who, acting under color of state law, subject
individuals to the ‘deprivation of any rights, privileges, or immunities secured by the Constitution and
laws’ of the United States.” Davis v. N.Y.C. Housing
Auth., 379 F. Supp. 3d 237, 244 (S.D.N.Y. 2019)
(quoting 42 U.S.C. § 1983). Defendants do not concede
that they acted under color of state law or qualify as
state actors (see Def. Br. 13 n.3), but the Court will
conduct its analysis based on the assumption that
Defendants indeed fall within § 1983’s ambit, albeit
without deciding the question. Therefore, the primary
question is whether Defendants are correct about the
application of the good-faith defense.5
The good-faith defense — a defense that private
actors can raise in response to § 1983 claims — has a
murky history that is worth exploring. In Lugar v.
Edmondson Oil Co., Inc., 457 U.S. 922, 935 (1982), the
Supreme Court held that private actors could be held
liable under § 1983. However, the Court chose not to
address whether a defense should be available for
“private individuals who innocently make use of
seemingly valid state laws” that are “subsequently
held to be unconstitutional,” as is available for government actors through the doctrines of good faith and
qualified immunity. See Lugar, 457 U.S. at 942 n.23.
The Court revisited the subject in Wyatt v. Cole, 504
U.S. 158, 158 (1992), making clear that private actors
are not entitled to the qualified immunity that the
Court described in Harlow v. Fitzgerald, 457 U.S. 800
(1982). Even then, the Court did “not foreclose the
possibility that private defendants faced with § 1983
liability … could be entitled to an affirmative defense
5 In analyzing Plaintiffs’ § 1983 claims, the Court also assumes
without deciding that Janus applies retroactively.

28a
based on good faith.” Wyatt, 504 U.S. at 169. Indeed,
Wyatt recognized that “principles of equality and
fairness may suggest … that private citizens who rely
unsuspectingly on state laws they did not create and
may have no reason to believe are invalid should have
some protection from liability.” Id. at 168. The Court
merely held that qualified immunity would not offer
that protection. See id.
Since Wyatt, numerous Circuit Courts of Appeals
have stepped into the breach left by the Supreme
Court and recognized the existence of a good-faith
defense for private actors in § 1983 cases. See, e.g.,
Clement v. City of Glendale, 518 F.3d 1090, 1097 (9th
Cir. 2008) (holding that private defendants may
assert a good-faith defense against § 1983 cases);
accord Vector Research, Inc. v. Howard & Howard
Attorneys P.C., 76 F.3d 692, 699 (6th Cir. 1996);
Jordan v. Fox, Rothschild, O’Brien & Frankel, 20 F.3d
1250, 1276-77 (3d Cir. 1994); Wyatt v. Cole, 994 F.2d
1113, 1118 (5th Cir. 1993). More importantly, the
Second Circuit has recognized the good-faith defense,
see Pinsky v. Duncan, 79 F.3d 306, 311-13 (2d Cir.
1996), and has reaffirmed the existence of that
defense (albeit in a summary order) in circumstances
remarkably analogous to the ones presently before the
Court, see Jarvis v. Cuomo, 660 F. App’x 72, 75 (2d
Cir. 2016) (summary order) (upholding the application
of the good-faith defense against claims that plaintiffs
were owed refunds of agency shop fees paid prior to
the Supreme Court’s decision in Harris). Plaintiffs
have offered no compelling reason why this Court
should ignore the Second Circuit, as well as the
thoughtful opinions of the other district courts that
have heard essentially the same claim. See, e.g., Babb
v. Cal. Teachers Ass’n, 378 F. Supp. 3d 857, 872 (C.D.
Cal. 2019) (collecting cases recognizing existence of

29a
good-faith defense on substantially identical facts). 6
This Court joins these courts in finding that a goodfaith defense exists under these circumstances.
Plaintiffs raise numerous arguments as to why,
even if a good-faith defense exists for private actors in
§ 1983 cases, it would be inapplicable under these
circumstances. In particular, Plaintiffs argue that: (i)
the good-faith defense is inapplicable because the
most analogous common-law tort here is conversion,
to which good faith is not a defense (see Pl. Opp. 1112); (ii) the good-faith defense only applies to
individuals, not entities (see id. at 15); (iii) the goodfaith defense is limited to individuals fulfilling a
governmental function (see id. at 16); (iv) the goodfaith defense is inapplicable because, under the
declaratory theory of law, Defendants cannot rely on
Abood (see id. at 7-8); (v) the good-faith defense is
inapplicable because Plaintiffs seek equitable relief
additional to monetary damages (see id. at 8); (vi)
Plaintiffs seek the return of unconstitutionally taken
property (see id.); (vii) Defendants cannot establish
that they acted in good faith (see id. at 16-20); and
(viii) it is inappropriate to make a finding of good faith
at this stage of litigation (see id. at 20-21). The Court
addresses, and rejects, each of these arguments in the
remainder of this section.
6 Plaintiffs argue that the Supreme Court’s decision in Filarsky
v. Delia, 566 U.S. 377 (2012), negates the need for the good-faith
defense (see Pl. Opp. 10-11), but Filarsky does not apply. Filarsky
merely held that a private individual may obtain the protection
of qualified immunity when they are essentially working as an
adjunct to the government. See 566 U.S. at 393-94. It does not
address whether private actors, working independently of the
government, may rely in good faith on seemingly valid state
laws.

30a
a. Plaintiffs Misperceive the CommonLaw Tort Analogue
Plaintiffs rely on the Fifth Circuit’s decision on
remand in Wyatt and on Pierson v. Ray, 386 U.S. 547
(1967), for the proposition that application of the goodfaith defense requires the court to determine the most
closely analogous common-law tort to the alleged
offense, and then determine whether good faith was a
defense to that tort in 1871, the year § 1983 was
enacted. (See Pl. Opp. 11-12). Several district courts,
on the other hand, have eschewed such analyses. See
Mooney v. Ill. Educ. Ass’n, 372 F. Supp. 3d 690, 703
(C.D. Ill. 2019) (holding that reliance on the good-faith
defense does not require a determination of the most
analogous common-law tort); see also Babb, 378 F.
Supp. 3d at 873 (explaining that Ninth Circuit precedent “gives no indication that courts must analyze a
common law analogue to apply the good-faith
defense”). For its part, the Court does not find either
Pierson or the Fifth Circuit’s remand decision in Wyatt
to be particularly helpful as guides, given that the
former predates the Supreme Court’s landmark decisions in Lugar, Harlow, and Wyatt, and is concerned
with defenses available to state actors, see Pierson,
386 U.S. at 556-57, while the latter is from a different
Circuit. However, the Court does consider the Second
Circuit’s handling of the question, principally in
Pinsky and Jarvis. Unfortunately, even the guidance
from the Circuit is unclear: while Pinsky expressly
engaged in the exercise of identifying the most closely
analogous tort, see 79 F.3d at 312, Jarvis did not
comment on the need for the analysis one way or the
other, see 660 F. App’x at 75. The wisest course is to
follow the clearer authority, and so the Court agrees
with Plaintiffs that it is appropriate to engage in an

31a
analysis of the most closely analogous tort when
deciding the applicability of the good-faith defense.
Where the Court parts company with Plaintiffs is
on the results of that analysis. Plaintiffs argue that
the most closely analogous common-law tort in this
case is conversion. (See Pl. Opp. 12). Conversion
occurs “when someone, intentionally and without
authority, assumes or exercises control over personal
property belonging to someone else, interfering with
that person’s right of possession.” Colavito v. N.Y.
Organ Donor Network, Inc., 8 N.Y.3d 43, 49-50 (2006).
In addition, Plaintiff indirectly argues that because
intent, or scienter, is not an element of conversion,
good faith has not been in the past and cannot be now
a defense to conversion. (See Pl. Opp. 12 n.63-66).
Plaintiff’s argument doubly fails. First, the Second
Circuit held in Jarvis that it is irrelevant whether the
underlying tort contains a scienter element. See 660
F. App’x at 75 (holding that the specific elements of
the underlying tort are irrelevant because “affirmative defenses [like the good-faith defense] need not
relate to or rebut specific elements of an underlying
claim”).
Second, even if the Court were to disregard Jarvis
and accept that a scienter element is needed for the
good-faith defense to apply, the defense would still
apply here because conversion is not, in fact, the most
closely analogous common-law tort. As other district
courts have noted, “Plaintiffs’ First Amendment claim
turns not upon the Union Defendants’ receipt of Plaintiffs’ property, but upon the dignitary harm resulting
from being compelled to support speech with which
they disagree.” Babb, 378 F. Supp. 3d at 873. Indeed,
Defendants note that Plaintiffs’ core injury stems
from “Defendants’ use of governmental process,

32a
§ 208(3), to violate their First Amendment rights.”
(See Def. Br. 16). This injury does not mirror conversion; it mirrors abuse of process. See Dowd v.
DeMarco, 314 F. Supp. 3d 576, 585 (S.D.N.Y. 2018)
(“[T]he gist of abuse of process is the improper use of
process after it is regularly issued.” (emphasis
removed) (quoting Curiano v. Suozzi, 63 N.Y.2d 113,
116 (1984))); see also Wyatt, 504 U.S. at 164
(describing abuse of process as a “cause[] of action
against private defendants for unjustified harm
arising out of the misuse of governmental processes”).
Other district courts have likewise found abuse of
process to be an apt analogy for Plaintiffs’ harm. See,
e.g., Diamond, 399 F. Supp. 3d at 398; Babb, 378 F.
Supp. 3d at 873; Carey v. Inslee, 364 F. Supp. 3d 1220,
1230 (W.D. Wash. 2019); Cook v. Brown, 364 F. Supp.
3d 1184, 1191-92 (D. Or. 2019). Because intent is an
element of abuse of process under New York law, see
Gilman v. Marsh & McLennan Cos., Inc., 868 F. Supp.
2d 118, 131 (S.D.N.Y. 2012), the good-faith defense
applies even under Plaintiffs’ preferred rules of
analysis.
b. The Good-Faith Defense Applies to
Both Individuals and Entities
Plaintiffs next contend, in reliance on Owen v.
City of Independence, 445 U.S. 622 (1980), that the
good-faith defense only applies to individuals, and
cannot be raised by entities. (See Pl. Opp. 15).
However, Plaintiffs’ reliance on Owen is faulty. As
Defendants note (see Def. Br. 19), Owen discusses
whether municipalities are entitled to qualified
immunity (and discusses such immunity prior to the
Supreme Court’s retooling of the entire qualified
immunity doctrine in Harlow), see 445 U.S. at 638.
Owen says nothing about the good-faith defense as

33a
discussed in Wyatt and then applied by numerous
circuit courts, including the Second Circuit. See, e.g.,
Jarvis, 660 F. App’x at 75-76 (finding that defendant
union was entitled to good-faith defense); Clement,
518 F.3d at 1096-97 (finding that private towing
company was entitled to good-faith defense); Vector
Research, 76 F.3d at 699 (finding law firm could raise
good-faith defense); Jordan, 20 F.3d at 1276-77
(same). Moreover, as the Mooney court aptly
explained, the good-faith defense and qualified
immunity are not coterminous, and the rationales
motivating the application of qualified immunity —
and its application to municipalities — do not apply in
the context of the good-faith defense and private
actors. See 372 F. Supp. 3d at 704-05. Therefore, the
Court does not accept Plaintiffs’ proposed limitation
on the good-faith defense.
c. The Good-Faith Defense Is Not
Limited to Governmental Functions
Plaintiffs rely again on Filarsky v. Delia, 566 U.S.
377 (2012), this time for the proposition that the goodfaith defense should be limited to actions fulfilling a
governmental function. (See Pl. Opp. 16). Not only do
Plaintiffs provide no support for such a limitation in
any prior application of the good-faith defense, but
Filarsky actually argues against Plaintiffs’ position.
As already noted, the Filarsky court held that private
individuals acting in a governmental capacity are
entitled to qualified immunity. See 566 U.S. at 393-94.
If such individuals are already protected by qualified
immunity, why should they also need a good-faith
defense? Such an interpretation of either Filarsky or
the good-faith defense would make the defense
redundant. The Court accordingly rejects such an
interpretation.

34a
d. The Declaratory Theory of Law Does
Not
Foreclose
the
Good-Faith
Defense
Undeterred, Plaintiffs next argue that under the
“declaratory theory of law,” Defendants cannot rely on
N.Y. Civ. Serv. Law § 208 as a defense for their
unconstitutional conduct. (See Pl. Opp. 7-8). The crux
of Plaintiffs’ argument seems to be not only that § 208
is unconstitutional and therefore must be considered
completely void (see id. at 6 (citing Reynoldsville
Casket Co. v. Hyde, 514 U.S. 749, 760 (1995)), but also
that the declaratory theory of law requires this Court
to consider § 208 as if it had always been invalid (see
id. at 7). Thus, the argument goes, Defendants cannot
say that their conduct was lawful because § 208 was
valid under Abood, because in the deeper, more
metaphysical sense of the law, Abood and all laws
authorized by it have never been valid. As support,
Plaintiffs point to Richardson v. United States, 465
F.2d 844, 850 (3d Cir. 1972) (en banc), rev’d on other
grounds, 418 U.S. 166 (1974), wherein the Third
Circuit refused to allow the Government to rely on the
Central Intelligence Agency Act for a defense when it
was claimed that the Act was unconstitutional,
writing that an unconstitutional law is “void and of no
effect.”
While the Court agrees with Plaintiffs that a
defendant cannot simply argue that conduct was
constitutional at the time in order to escape liability
for unlawful conduct, that is not the issue before the
Court. Instead, the Court is determining whether
Defendants may assert the good-faith defense, a
recognized affirmative defense in § 1983 actions. And
there is no question that while a party cannot merely
point to a void law as a basis for relief, see

35a
Reynoldsville, 514 U.S. at 751, a party can still rely on
“a previously existing, independent legal basis,” see id.
at 759. The good-faith defense is such an independent
legal basis, see Diamond, 399 F. Supp. 3d at 396, and
thus Plaintiffs’ argument based on the “declaratory
theory” must fail. Indeed, were the Court to find
otherwise and adopt Plaintiffs’ interpretation of the
“declaratory theory,” the Court would have to ignore
Second Circuit precedent and find that there could
never be a good-faith defense in § 1983 actions. It is
not the Court’s place to make such a finding, and so it
will not.
e. Plaintiffs’ Effort to Recast Their
Claims as Equitable Claims Fails
Although Plaintiffs do not clearly articulate it, the
Court reads Plaintiffs’ briefing as making an argument that they are entitled to a refund of their agency
shop fees as a matter of equity, as opposed to law. (See
Pl. Opp. 8 (arguing that Defendants took Plaintiffs’
property based on an unconstitutional statute, and
that both law and equity require that property’s
return)). Plaintiffs do not articulate how, if at all, an
equitable claim would preclude Defendants’ entitlement to the good-faith defense. However, insofar as
the distinction between legal and equitable claims is
relevant, Plaintiffs’ claims clearly sound in law, not
equity. As other district courts have noted, Plaintiffs
seek a repayment of previously paid agency shop fees
“not from particular funds or property in the [D]efendant[s]’[] possession, … but from Union Defendants’
general assets.” See, e.g., Diamond, 399 F. Supp. 3d at
400-01 (internal quotation marks and citation
omitted) (citing Great-West Life & Annuity Ins. Co. v.
Knudson, 534 U.S. 204, 213 (2002)). Indeed, as in the
other district court cases, see, e.g., id. at 401 (collecting

36a
similar cases), Plaintiffs’ core claim is that
Defendants PSC, FASCCC, and UPP either spent the
collected agency shop fees or forwarded them to the
other Defendants (see Am. Compl. ¶¶ 3-5). “[W]here
the property sought to be recovered or its proceeds
have been dissipated so that no product remains, the
plaintiff’s claim is only that of a general creditor.”
Knudson, 534 U.S. at 213-14 (internal quotation
marks and brackets omitted). Therefore, this Court
joins other courts in finding that Plaintiffs’ have
presented solely legal claims.
f.

Plaintiffs’ Potential Entitlement to
the Return of Property Does Not
Foreclose a Good-Faith Defense

Plaintiffs claim that “wrongfully taken property
must always be returned when the statute relied on
for taking the property is later declared unconstitutional.” (See Pl. Opp. 8). But Plaintiffs’ proffered
authorities do not stand for such a broad proposition,
and even if they did, they say nothing about a goodfaith defense in a § 1983 suit for monetary damages.
Harper v. Virginia Department of Taxation, 509 U.S.
86, 98-99 (1993), deals with whether a court must
apply a judicial decision retroactively; Wyatt v. Cole,
994 F.2d at 1115, held that defendants can, in fact,
rely in good faith on a statute later declared unconstitutional; United States v. Lewis, 478 F.2d 835, 836
(5th Cir. 1973), discusses whether a criminal defendant is entitled to a return of fines paid pursuant to a
guilty plea to a statute subsequently determined to be
unconstitutional; United States v. Venneri, 782 F.
Supp. 1091, 1093 (D. Md. 1991), similarly addressed
the return of restitution paid by a criminal defendant
on the basis of what was later found to be an unlawful
(but not unconstitutional) conviction; and United

37a
States v. Rayburn House Office Building Room 2113,
497 F.3d 654, 656 (D.C. Cir. 2007), mandated the
return of documents seized in violation of the Speech
or Debate Clause of the Constitution. These cases,
whether taken separately or in the aggregate, do not
speak to Plaintiffs’ rule. Moreover, with the exception
of Wyatt, each is easily distinguishable from the particular circumstances before the Court — Plaintiffs
seeking a refund of money that was deducted
pursuant to statutes drafted in full compliance with
prevailing Supreme Court precedent. As observed by
another district court, “in situations where the
Supreme Court has reversed a prior ruling but not
specified that the party before it is entitled to retrospective monetary relief, it seems unlikely that lower
courts should even consider awarding retrospective
monetary relief based on conduct the Court had
previously authorized.” Bermudez v. Serv. Emps. Int’l
Union, Local 521, No. 18 Civ. 4312 (VC), 2019 WL
1615414, at *1 (N.D. Cal. Apr. 16, 2019). This Court
agrees.
g. Defendants’ Are Entitled to the GoodFaith Defense as a Matter of Law
In the absence of other obstacles to the application
of the good-faith defense, Plaintiffs argue that Defendants did not, in fact, act in good faith. (See Pl. Opp.
16). In support of this argument, Plaintiffs devote four
pages of their briefing to detailing Defendants’ alleged
violations of Chicago Teachers Union, Local No. 1,
AFT, AFL-CIO v. Hudson, 475 U.S. 292 (1986), and
other cases by overcharging Plaintiffs. (See id. at 1720). These claims are neither alleged in Plaintiffs’
Amended Complaint, nor are they matters of which
the Court may take judicial notice. See Fed. R. Evid.
201 (“The court may judicially notice a fact that is not

38a
subject to reasonable dispute.”). Indeed, they are
fundamentally different claims, and they fall far
outside the “narrow universe of materials” the Court
may consider on a Rule 12(b)(6) motion. See Goel v.
Bunge, Ltd., 820 F.3d 554, 559 (2d Cir. 2016). Therefore, the Court will not consider those allegations.
Plaintiffs also argue Defendants could not have
acted in good faith because they were “on notice”
about Abood’s shaky foundations. (See Pl. Opp. 16). As
a matter of Second Circuit precedent, this argument
fails. See Jarvis, 660 F. App’x at 76 (finding defendants not liable for collection of agency shop fees
“[b]ecause it was objectively reasonable for [defendant] ‘to act on the basis of a statute not yet held
invalid’” (quoting Pinsky, 79 F.3d at 313)). Moreover,
as other district courts have noted, Plaintiffs’ position
would “imperil the rule of law,” see Cook, 364 F. Supp.
3d at 1193, since it would lead to individuals
disregarding Supreme Court precedent based on their
personal divinations of what the law might become at
some future date. As every other district court that
has considered the issue has found, Defendants were
entitled to rely on what was indisputably the law of
the land at the time. See, e.g., Danielson v. Am. Fed’n
of State, Cty., & Mun. Emps., Council 28, AFL-CIO,
340 F. Supp. 3d 1083, 1086-87 (W.D. Wash. 2018). The
good-faith defense does not require a defendant to be
clairvoyant.
Moreover, the Court finds that Defendants have
satisfied the requirements of the good-faith defense,
even in the context of a Rule 12(b)(6) motion. As the
Second Circuit has recognized, the good-faith defense
provides that “private defendants … may be held
liable for damages under § 1983 only if they … knew
or should have known that the statute upon which

39a
they relied was unconstitutional.” See Pinsky, 79 F.3d
at 311 (quoting Wyatt, 994 F.2d at 1118). And as
already mentioned, in the Second Circuit it is
“objectively reasonable” to rely on a “statute not yet
held invalid.” See Jarvis, 660 F. App’x at 76 (quoting
Pinsky, 79 F.3d at 313). There is no dispute that
Defendants collected agency fees as authorized by
N.Y. Civ. Serv. Law § 208(3) and in full compliance
with then-binding Supreme Court precedent; nor have
Plaintiffs shown, if the Court were to apply a subjective standard, that Defendants knew or should have
known that § 208(3) was unconstitutional. Therefore,
the Court must find as a matter of law that Defendants acted in good faith and cannot be held liable for
monetary damages under § 1983.
h. Plaintiffs Are Not Entitled
Discovery on Good Faith

to

As a final matter, Plaintiffs assert that it would
be inappropriate for the Court to decide whether
Defendants have asserted the good-faith defense
without allowing Plaintiffs to take discovery first. (See
Pl. Opp. 20-21). However, all the information the
Court needs to make its finding appears on the face of
the Amended Complaint. As Plaintiffs acknowledge, it
was not until Janus that the Supreme Court declared
compulsory agency shop fees in the public sector to be
unconstitutional. (See Am. Compl. Introduction). And
as already discussed, it was objectively reasonable for
Defendants to rely on a “statute not yet held invalid.”
See Jarvis, 660 F. App’x at 76 (quoting Pinsky, 79 F.3d
at 313). Indeed, Justice Kennedy noted in Wyatt that
“there is support in the common law for the proposition that a private individual’s reliance on a statute,
prior to a judicial determination of unconstitutionality, is considered reasonable as a matter of law.” 504

40a
U.S. at 174 (Kennedy, J., concurring) (emphasis
added). Given the objective reasonableness of Defendants’ reliance on controlling law at the time, there is
no need for discovery into Defendants’ state of mind
at the time. Dismissal is both appropriate and
warranted.
3. Plaintiffs Fail to State a Claim Under
State Law
In addition to their federal claims under § 1983,
Plaintiffs also bring state-law claims for conversion
and unjust enrichment. (See Am. Compl. ¶¶ 38-49).
Defendants raise numerous arguments, including
that these state-law claims are precluded by N.Y. Civ.
Serv. Law § 215. (See Def. Br. 21). Section 215
provides:
Notwithstanding any other law to the
contrary, any public employer, any employee
organization, … or any of their employees or
agents, shall not be liable for, and shall have
a complete defense to, any claims or actions
under the laws of this state for requiring,
deducting, receiving, or retaining agency shop
fee deductions from public employees, and
current or former public employees shall not
have standing to pursue these claims or
actions, if the fees were permitted or mandated at the time under the laws of this state
then in force and paid, through payroll deduction or otherwise, prior to June [27, 2018].
N.Y. Civ. Serv. Law § 215(1) (McKinney 2019)
(emphasis added). The statute states expressly that it
applies “to claims and actions pending or filed on or
after June [27, 2018].” Id. § 215(2).

41a
Plaintiffs argue that § 215, despite its express
language to the contrary, does not apply here. (See Pl.
Opp. 21). Their theory is that N.Y. Civ. Serv. Law. §
208 was never “in force,” since under the declaratory
theory of law it was always void, and therefore the fees
collected were not permitted under any law. (See id.).
Although the Court appreciates that Plaintiffs may be
correct about § 208’s metaphysical status, that does
not mean that § 208 was not, in reality, in force prior
to Janus. For the purposes of the statute, § 208 was
indeed in force prior to June 27, 2018.
Moreover, although Plaintiffs do not raise the
issue in their briefing, it is clear that § 215 applies
retroactively to Plaintiffs’ state-law claims. Under
New York law, “[a]mendments are presumed to have
prospective application unless the Legislature’s
preference for retroactivity is explicitly stated or
clearly indicated.” Matter of Gleason, 96 N.Y.2d 117,
122 (2001) (citing People v. Oliver, 1 N.Y.2d 152, 157
(1956)). Additionally, “remedial legislation should be
given retroactive effect in order to effectuate its beneficial purpose.” Id. (citing Majewski v. BroadalbinPerth Cent. Sch. Dist., 91 N.Y.2d 577, 584 (1998)).
“Remedial statutes are those designed to correct
imperfections in the prior law.” N.Y. Stat. § 54(a),
Comment (McKinney 2019).
Section 215 expressly provides for retroactive
application by stating that it applies “to claims and
actions pending or filed on or after” June 27, 2018, see
N.Y. Civ. Serv. Law § 215(2), which includes actions
filed prior to the statute’s enactment in April 2019.
Section 215 is also a remedial statute because it was
designed to ensure that employee organizations,
among others, would remain free from liability for the
previously lawful collection of agency shop fees now

42a
that Janus has made such conduct unlawful. Cf.
Majewski, 91 N.Y.2d at 584-85 (describing legislation
as “remedial” when it was enacted to restore immunity to tort liability following a Court of Appeals decision). Thus, there is no question that § 215 is retroactive legislation and applies to the matter at hand.
Nevertheless, Plaintiffs contend that § 215 is
unconstitutional under both the United States and
New York7 constitutions. Specifically, Plaintiffs allege
that § 215 (i) violates the procedural and substantive
due process protections provided by both constitutions; (ii) constitutes an unlawful taking in violation
of the Fifth Amendment, as incorporated through the
Fourteenth Amendment; and (iii) violates Article VII,
§ 6 of the New York State Constitution. The Court will
address each argument in turn.
a. Section 215 Does Not Violate
Plaintiffs’ Procedural Due Process
Rights
Both the federal and New York State constitutions provide that “[n]o person shall … be deprived of
life, liberty or property, without due process of law.”
U.S. Const. amend. V; N.Y. Const. Art. I, § 6
(McKinney, Westlaw through L. 2019, chapter 579).
“Procedural due process imposes constraints on
governmental decisions which deprive individuals of
‘liberty’ or ‘property’ interests,” Mathews v. Eldridge,
7 The Court of Appeals, New York’s highest court, reads New
York’s due process guarantee as largely coterminous with the
due process guaranteed under the U.S. Constitution. See Am.
Econ. Inst. Co. v. State, 30 N.Y.3d 136, 157-58 (2017); People v.
David W., 95 N.Y.2d 130, 136 (2000). Therefore, the Court will
offer a merged analysis of the federal and state constitutional
due process claims, as opposed to disaggregating them.

43a
424 U.S. 319, 332 (1976), by requiring the Government to provide some sort of procedural protections
when a deprivation occurs, see Zinermon v. Burch, 494
U.S. 113, 125-27 (1990). However, as the Supreme
Court has recognized, “the State remains free to
create substantive defenses or immunities for use in
adjudication,” Logan v. Zimmerman Brush Co., 455
U.S. 422, 432 (1982); accord Stoianoff v. Commissioner of Motor Vehicles, 107 F. Supp. 2d 439, 448
(S.D.N.Y. 2000), aff’d sub nom. Stoianoff v. Commissioner of Department of Motor Vehicles, 12 F. App’x 33
(2d Cir. 2001) (summary order), and when it does so,
“the legislative determination provides all the process
that is due,” Logan, 455 U.S. at 433. Indeed, the Supreme Court held as much in Martinez v. California,
where it recognized that even if California’s immunity
statute had deprived plaintiffs of a property interest,
it had not done so without due process. See 444 U.S.
277, 281-83 (1980). Relevantly, the Court also wrote
that “the State’s interest in fashioning its own rules of
tort law is paramount to any discernable federal
interest, except perhaps an interest in protecting the
individual from state action that is wholly arbitrary
or irrational.” Id. at 282.
Here, the New York legislature’s determination to
immunize those involved in the collection of agency
shop fees from liability is all the process that Plaintiffs
are due. Plaintiffs primarily rely on Logan (see Pl.
Opp. 22-23), but as already noted, Logan cuts against
Plaintiffs by reaffirming that the legislative process
satisfies any procedural due process concerns, see 455
U.S. at 433. The Supreme Court’s finding that the
Constitution entitles the claimant to “some form of
hearing,” see Logan, 455 U.S. at 433, is limited to
when the State institutes “a procedural limitation on
the claimant’s ability to assert his rights,” as opposed

44a
to altering “a substantive element of the … claim,” see
id. Moreover, insofar as solely federal constitutional
claims are concerned, it cannot be argued that the
New York legislature’s action was “wholly arbitrary or
irrational.” The legislature wanted to protect those
who had relied in good faith on § 208, a statute
designed in full compliance with prevailing Supreme
Court precedent at the time. The Court cannot regard
such an objective or action as irrational. Section 215
comports fully with procedural due process.
b. Section 215 Does Not Violate
Plaintiffs’ Substantive Due Process
Rights
Whereas the procedural component of due process
ensures that no deprivation occurs without adequate
procedural safeguards, see Zinermon, 494 U.S. at 12527, substantive due process “guard[s] the individual
against ‘the exercise of power without any reasonable
justification in the service of a legitimate governmental objective,’” Lombardi v. Whitman, 485 F.3d
73, 79 (2d Cir. 2007) (quoting County of Sacramento v.
Lewis, 523 U.S. 833, 846 (1998)). However, “[g]enerally speaking, state laws need only be rational and
non-arbitrary in order to satisfy the right to substantive due process.” Gibson v. Am. Cyanamid Co., 760
F.3d 600, 614 (7th Cir. 2014). Indeed, as the New York
Court of Appeals has noted, “the test of due process
for retroactive legislation ‘is met simply by showing
that the retroactive application of the legislation is
itself justified by a rational legislative purpose.’” Am.
Econ. Ins. Co. v. State, 30 N.Y.3d 136, 158 (2017). As
already noted, the Court does not view the legislature’s decision to immunize those who lawfully
collected agency shop fees prior to Janus as irrational.

45a
Alternatively, retroactive legislation can run afoul
of substantive due process if it impairs “vested or
property rights.” See All. of Am. Insurers v. Chu, 77
N.Y.2d 573, 586 (1991); cf. Davis, 379 F. Supp. 3d at
252-53 (explaining that a plaintiff can show a
substantive due process violation where there is a
“valid property interest,” or “property right,” and an
infringement of that right “in an arbitrary or irrational manner”). However, Plaintiffs currently have
no property interest that the legislation can impair or
infringe, as property rights in a cause of action do not
vest until “a final unreviewable judgment” has been
obtained. See Worldwide Directories, S.A. De C.V. v.
Yahoo! Inc., No. 14 Civ. 7349 (AJN), 2016 WL
1298987, at *6 (S.D.N.Y. Mar. 31, 2016) (quoting Ileto
v. Glock, Inc., 565 F.3d 1126, 1141 (9th Cir. 2009)); see
also Hosp. Ass’n of N.Y. State, Inc. v. Tola, 577 F.2d
790, 797 (2d Cir. 1978) (affirming district court’s
finding that “hospitals possessed no vested right in
the judgment entitling it to protection under the Due
Process Clause because it had not yet become final
and unreviewable”); Hodes v. Axelrod, 70 N.Y.2d 364,
370 (1987) (explaining that “vested rights doctrine”
protects a judgment from subsequent legislation
“after [the judgment] becomes final”). Given the lack
of any vested right or arbitrary behavior on the part
of the legislature, the Court finds that § 215 also does
not violate substantive due process.
c. Section 215 Does Not Violate the
Takings Clause
The Fifth Amendment of the U.S. Constitution
and Article I, § 7 of the New York State Constitution
provide that private property shall not “be taken for
public use, without just compensation.” U.S. Const.
amend. V; N.Y. Const. Art. I, § 7. As Plaintiffs note

46a
(see Pl. Opp. 24), the Takings Clause “prevents the
Legislature (and other government actors) from
depriving private persons of vested property rights,”
Landgraf v. USI Film Prods., 511 U.S. 244, 266 (1994)
(emphasis added). Plaintiffs’ argument, therefore fails
for the same reason their substantive due process
argument fails — they possess no vested property
right, and thus nothing has been taken from them.
Section 215 does not run afoul of the Takings Clause.
d. Section 215 Does Not Violate Article
VII, § 6 of the New York State
Constitution
Plaintiffs’ final argument for § 215’s invalidity is
that it violates Article VII, § 6 of the New York State
Constitution, which provides that “[n]o provision shall
be embraced in any appropriation bill … unless it
relates specifically to some particular appropriation in
the bill.” Section 215 was enacted as part of the 2019
appropriation bill, see generally N.Y. Legis. 56
(McKinney 2019), and therefore must comport with
Article VII, § 6. The bar, however, is low. In Schuyler
v. S. Mall Constructors, 303 N.Y.S.2d 901, 903 (3d
Dep’t 1969), the court held that a provision in the
appropriation bill to negotiate a contract for the construction of a public building at the Albany South Mall
was in compliance with Article VII, § 6 because the
bill appropriated money “for the construction of State
buildings and other public improvements, including
the erection of the building in question.” The court
found that the provision “relate[d] specifically to some
particular appropriation in the bill[] even though the
‘particular appropriation’ to which it relate[d] [was]
not precisely itemized in the general appropriation
bill.” Id. at 904. Similarly, the Appellate Division
upheld the creation of the Commission on Legislative,

47a
Judicial, and Executive Compensation via appropriation bill because the Commission’s purpose — “to
provide for periodic review of the compensation of
state officers — relate[d] to items of appropriation in
the budget.” Ctr. for Judicial Accountability, Inc. v.
Cuomo, 91 N.Y.S.3d 553, 559 (3d Dep’t 2018). Reading
these cases together, the common theme is that there
must be a rational relationship between the challenged provision and a general item of appropriation
in the budget; there is no need to tie the provision to
a specific, itemized appropriation. Therefore, insofar
as the budget appropriates funds for the compensation of public employees, the Court finds that § 215
relates to “some particular appropriation” in the
budget because § 215 governs liability for those individuals and entities managing public employees’
paychecks. Plaintiffs’ final challenge to § 215 fails,
and the Court thus finds that § 215 precludes all of
Plaintiffs’ state-law claims.
In sum, the Court joins the numerous other
district courts that have heard substantially the same
facts, claims, and arguments, in finding that Plaintiffs
have failed to state any claim upon which relief may
be granted. Moreover, Plaintiffs are not entitled to
either injunctive relief or a declaratory judgment
because they lack standing to request such prospective relief. Accordingly, Defendants’ motions to
dismiss are granted in full.
CONCLUSION
For the reasons set forth in this Opinion, Defendants’ motion to dismiss is GRANTED and Plaintiffs’
claims are DISMISSED WITH PREJUDICE. The
Clerk of Court is directed to terminate all pending motions, adjourn all remaining dates, and close this case.

48a
SO ORDERED.
Dated: January 3, 2020
New York, New York
KATHERINE POLK FAILLA
United States District Judge

